AUDIT OF THE OFFICE OF COMMUNITY ORIENTED 

 POLICING SERVICES AND OFFICE OF JUSTICE 

      PROGRAMS GRANTS AWARDED TO 

  THE CITY OF LAWRENCE, MASSACHUSETTS 



         U.S. Department of Justice 

       Office of the Inspector Genera l 

                Audit Division 


         Audit Report GR-70-13-003 

               February 2013 

    AUDIT OF THE OFFICE OF COMMUNITY ORIENTED

 POLICING SERVICES AND OFFICE OF JUSTICE PROGRAMS

                GRANTS AWARDED TO

       THE CITY OF LAWRENCE, MASSACHUSETTS


                        EXECUTIVE SUMMARY


       The Department of Justice Office of the Inspector General, Audit
Division, has completed an audit of the Office of Community Oriented
Policing Services (COPS) Hiring Recovery Program (CHRP) grant
number 2009-RJ-WX-096, and the Office of Justice Programs (OJP) Bureau
of Justice Assistance Recovery Act Edward Byrne Memorial Justice Assistance
(JAG) grant number 2009-SB-B9-0647, awarded to the city of Lawrence,
Massachusetts (Lawrence). Collectively, the grants totaled $1,809,577. The
general purpose of the grants was to preserve jobs, promote economic
recovery, and increase crime prevention efforts. In addition, COPS awarded
CHRP funding to increase community policing capacity and crime-prevention
efforts, and OJP awarded JAG funding to improve the effectiveness and
efficiency of state and local criminal justice systems.

      The objective of our audit was to determine whether costs claimed
under the grants were allowable, supported, and in accordance with
applicable laws, regulations, guidelines, and the terms and conditions of the
grants. We also assessed Lawrence’s program performance in meeting the
grants’ objectives and overall accomplishments.

       We reviewed Lawrence’s compliance with key award conditions and
found Lawrence generally met the terms and conditions of the awards
governing most of the grant management areas we tested. However, we
identified one finding related to an incorrect medical fringe benefit
expenditure charge for one CHRP funded officer. Our finding did not result
in questioned costs.

     These items are discussed in detail in the findings and
recommendations section of the report. Our audit objectives, scope, and
methodology appear in Appendix I.

      We discussed the results of our audit with Lawrence officials and have
included their comments in the report, as applicable. In addition, we
requested a response to our draft report from the City of Lawrence, OJP, and
COPS, and their responses are appended to this report as Appendices II, III
and IV, respectively. Our analysis and summary of actions necessary to
close the recommendation can be found in Appendix V of this report.
                                 TABLE OF CONTENTS


INTRODUCTION ........................................................................ 1

The Office of Community Oriented Policing Services ......................... 1

Office of Justice Programs............................................................. 2

American Recovery and Reinvestment Act. ..................................... 2

City of Lawrence, Massachusetts. .................................................. 3

Our Audit Approach ..................................................................... 4


FINDINGS AND RECOMMENDATIONS........................................ 6

Internal Control Environment ........................................................ 6

CHRP Application Statistics ........................................................... 7

Salary and Fringe Benefit Expenditures ......................................... 8

Budget Management and Control..................................................10

Reporting ..................................................................................12

Drawdowns................................................................................13

Compliance with Other Award Conditions.......................................15

Program Performance and Accomplishments .................................17

Conclusions ...............................................................................18

Recommendation........................................................................18


APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ........19

APPENDIX II - CITY OF LAWRENCE RESPONSE TO THE 

   DRAFT AUDIT REPORT...................................................... 21


APPENDIX III - OFFICE OF JUSTICE PROGRAMS RESPONSE

   TO THE DRAFT AUDIT REPORT ......................................... 23


APPENDIX IV - OFFICE OF COMMUNITY ORIENTED POLICING

   SERVICES RESPONSE TO THE DRAFT AUDIT REPORT ....... 25


APPENDIX V - OFFICE OF THE INSPECTOR GENERAL
   ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
   TO CLOSE THE REPORT ..................................................... 27

                            INTRODUCTION

      The Department of Justice (DOJ) Office of the Inspector General, Audit
Division, has completed an audit of two grants awarded as part of the
American Recovery and Reinvestment Act of 2009 (Recovery Act) to the city
of Lawrence, Massachusetts (Lawrence). These grants were an Office of
Community Oriented Policing Services (COPS) Hiring Recovery Program
(CHRP) grant and an Office of Justice Programs (OJP) Bureau of Justice
Assistance (BJA) Recovery Act Edward Byrne Memorial Justice Assistance
Grant (JAG), in the amounts of $1,496,985 and $312,592 respectively. The
purpose of Lawrence’s Recovery Act awards was to prevent the layoff of
11 police officers in an effort to preserve jobs and to increase Lawrence’s
community policing capacity and crime-prevention efforts, promote the city’s
community policing mission, and to reduce violence through critical
enforcement, intervention and prevention efforts.

      The objective of our audit was to determine whether costs claimed
under the grants were allowable, supported, and in accordance with
applicable laws, regulations, guidelines, and the terms and conditions of the
awards. We also assessed Lawrence’s program performance in meeting
grant objectives and overall accomplishments. The following table shows
the total funding for the grants.

              COPS Hiring and OJP Recovery Act Grants

                     Lawrence, Massachusetts

      GRANT NUMBER       START DATE     END DATE                   AMOUNT
2009-RJ-WX-0396               07/01/2009        06/30/2012       $1,496,985
2009-SB-B9-0647               03/01/2009        02/28/2013           312,592
          TOTAL:                                                 $1,809,577
Source: COPS and OJP

The Office of Community Oriented Policing Services

       The Office of Community Oriented Policing Services (COPS), within the
Department of Justice, assists law enforcement agencies in enhancing public
safety through the implementation of community policing strategies in
jurisdictions of all sizes across the country. The COPS office provides
funding to state, local, and tribal law enforcement agencies and other public
and private entities to hire and train community policing professionals,
acquire and deploy cutting-edge crime-fighting technologies, and develop
and test innovative policing strategies.




                                    -1­
Office of Justice Programs

      The mission of the Office of Justice Programs (OJP) is to increase
public safety and improve the fair administration of justice across America
through innovative leadership and programs. OJP works in partnership with
the justice community to identify the most pressing crime-related challenges
confronting the justice system and to provide information, training,
coordination, and innovative strategies and approaches for addressing these
challenges.

Bureau of Justice Assistance

       The mission of the Bureau of Justice Assistance (BJA), a component of
OJP, is to provide leadership and services in grant administration and
criminal justice policy development to support local, state, and tribal justice
strategies to achieve safer communities. BJA has three primary
components: Policy, Programs, and Planning. The Policy Office was
established to provide national leadership in criminal justice policy, training,
and technical assistance to further the administration of justice. It also acts
as a liaison to national organizations that partner with BJA to set policy and
help disseminate information on best and promising practices. The
Programs Office works to coordinate and administer all state and local grant
programs and acts as BJA's direct line of communication to states,
territories, and tribal governments by providing assistance and coordinating
resources. The Planning Office works to coordinate the planning,
communications, and budget formulation and execution, and provide overall
BJA-wide coordination.

American Recovery and Reinvestment Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act were to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide long
term economic benefits; and (5) stabilize state and local government
budgets in order to minimize and avoid reductions in essential services and
counterproductive state and local tax increases.

      The Recovery Act provided approximately $4 billion to the Department
of Justice in grant funding to be used to enhance state, local, and tribal law
enforcement efforts. Of these funds, $1 billion was provided to the COPS


                                      -2­
Office for grants to state, local, and tribal governments to hire or retain
police officers. Another $2 billion was provided to OJP for Byrne JAG grants.

Community Oriented Policing Services Hiring Recovery Program Grant

      To distribute the Recovery Act money, COPS established the COPS
Hiring Recovery Program (CHRP), a grant program for the hiring, rehiring,
and retention of career law enforcement officers. COPS created CHRP to
provide 100 percent of the funding for approved entry-level salaries and
benefits (for 3 years) for newly-hired, full-time sworn officer positions, for
rehired officers who had been laid off, or for officers who were scheduled to
be laid off on a future date. COPS received 7,272 applications requesting
funding for approximately 39,000 officer positions. On July 28, 2009, COPS
announced its selection of 1,046 law enforcement agencies as recipients of
the $1 billion CHRP funding to hire, rehire, and retain 4,699 officers. The
grants were competitively awarded based on data submitted by each
applicant related to fiscal and economic conditions, rates of crime, and
community policing activities.

Office of Justice Programs Byrne Memorial Justice Assistance Grant

      The Byrne Justice Assistance (JAG) grant program is the primary
provider of federal criminal justice funding to state and local jurisdictions.
Recovery Act JAG funds supported all components of the criminal justice
system, from multi-jurisdictional drug and gang task forces to crime
prevention and domestic violence programs, courts, corrections, treatment,
and justice information sharing initiatives. These JAG grants funded projects
to address crime by providing services to individuals and communities, and
the projects were designed to improve the effectiveness and efficiency of
state and local criminal justice systems. OJP awarded these Recovery Act
JAG grants based on a state’s share of the national population as well as the
state’s share of violent crime statistics. Local governments received direct
funding that was based on the local government’s share of total violent
crime within their state.

City of Lawrence, Massachusetts

       Lawrence, Massachusetts, built in the 1840’s as the nation’s first
planned industrial city, is known as a city of immigrants. Lawrence is
located in Essex County, and at the time of its application reported a
population of 70,609. According to the Lawrence’s website, immigrants
moved to the city to work in the textile industry that was designed to
harness the hydroelectric power produced by the Merrimack River. Today,
the city retains its immigrant culture but the manufacturing industry


                                     -3­
accounts for only 35 percent of the city’s economy. Moreover, the loss of
manufacturing has over the years contributed to rising unemployment that
stood at 16 percent at the time Lawrence applied for its CHRP grant.
Lawrence’s ongoing fiscal crisis resulted in drastic cuts across all municipal
government including the Lawrence Police Department (LPD). The LPD had
147 officers on board at the time Lawrence applied for its CHRP grant. As a
result of Lawrence’s well publicized financial difficulties, the Commonwealth
of Massachusetts (Commonwealth) established a fiscal stability fund to help
the city meet its financial obligations for fiscal years 2009 and 2010. The
stability fund also included a Fiscal Overseer with comprehensive authority
over all of the city’s financial matters. In 2012, after completing citywide
layoffs and instituting structural changes to financial management policies,
Lawrence’s Mayor reported the city was able to balance the city’s budget.

Our Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the award. Unless otherwise stated in our report, the criteria
we audit against were contained in Code of Federal Regulations:
28 CFR § 66, the 2009 CHRP Grant Owner’s Manual, the Uniform
Administrative Requirements for Grants, the OJP Financial Guide, and the
terms and conditions of each grant award. We tested Lawrence’s:

      •	 Internal control environment to determine whether the financial
         accounting system and related internal controls were adequate to
         safeguard award funds and ensure compliance with the terms and
         conditions of the awards.

      •	 CHRP application statistics to assess the accuracy of key
         statistical data that the grantee submitted with its CHRP application.

      •	 Salary and fringe benefit expenditures to determine whether
         the salaries and fringe benefits charged to the awards were
         allowable, supported, and accurate.

      •	 Budget management and control to determine whether Lawrence
         adhered to the COPS and OJP-approved budgets for the expenditure
         of grant funds.

      •	 Reporting to determine if the required periodic Federal Financial
         Reports, Progress Reports, and Recovery Act Reports were
         submitted on time and accurately reflected award activity.




                                     -4­
     •	 Drawdowns (request for grant funding) to determine whether
        requests for reimbursements were adequately supported and if
        Lawrence managed grant receipts in accordance with federal
        requirements.

     •	 Compliance with other award conditions to determine whether
        Lawrence complied with the terms and conditions in the grants.

     •	 Program performance and accomplishments to determine
        whether the Lawrence achieved grant objectives and to assess
        performance and grant accomplishments.

      When applicable, we also test for compliance in the areas of matching
funds, accountable property, monitoring subcontractors, and program
income. For these grants, matching funds were not required and there was
no accountable property, subcontractors, or program income.




                                   -5­
                FINDINGS AND RECOMMENDATION


      We determined that Lawrence generally complied with the
      terms and conditions of the Recovery Act CHRP and JAG
      grants. However, we found Lawrence officials incorrectly
      charged the medical fringe benefit expenditure of one CHRP
      funded officer to the grant. Because officials conservatively
      estimated the medical fringe benefit expenditure, we did not
      question costs. This condition and its underlying causes are
      discussed in the body of the report.

Internal Control Environment

      Our audit included a review of Lawrence’s accounting and financial
management system and Single Audit Reports to assess the risk of non­
compliance with laws, regulations, guidelines, and the terms and conditions
of the grant awards. We also interviewed management staff from Lawrence
and performed salary and fringe benefit expenditure testing to further assess
risk.

      According to the OJP Financial Guide, grant recipients are responsible
for establishing and maintaining an adequate system of accounting and
internal controls. An acceptable internal control system provides cost and
property controls to ensure optimal use of funds.

       The Grant Manager told us she believed an adequate system of
internal controls was in place. Additionally, Lawrence’s most recent Single
Audit Report did not identify any internal control shortcomings. However,
our review of the medical fringe benefit expenditures charged to the CHRP
grant showed that improvements can be made in Lawrence’s system of
internal controls in this area. This internal control deficiency is discussed in
detail in the body of the report.

Financial Management System

      The Code of Federal Regulations requires recipients to maintain
records to adequately identify the source and application of grant funds
provided for financially supported activities. These records must contain
information pertaining to grant awards and authorizations, obligations,
unobligated balances, assets, liabilities, outlays or expenditures, and
income.




                                      -6­
     We found that Lawrence maintained these records in two separate
accounts, one for the CHRP grant and another for the JAG grant. We
determined that the two accounts tracked obligations, outlays, and
expenditures allocated to each grant. We also determined that the
accounting system in use by Lawrence was adequate to record the receipt
and expenditure of federal funds.

Single Audits

      We reviewed Lawrence’s Single Audit Reports for FY 2010 and 2011
and found one audit finding that could have impacted the CHRP and the JAG
grants. The audits identified deficiencies in the city's budgetary process for
administering grants because the city did not identify separate accounts
within its budget for each grant received. However, for the grants we
audited, we determined that the responsible grant manager assigned by the
Lawrence Police Department had established separate accounting codes
within the city's budget for both grants. In addition, the grant manager
established budget categories within the accounting codes to accurately
track each of the grant approved budget categories.

CHRP Application Statistics

      To select CHRP grantees, COPS developed a methodology that scored
and ranked applicants based on data related to their fiscal and economic
conditions, rates of crime, and community policing activities. In general, the
applicants experiencing more fiscal and economic distress, exhibiting higher
crime rates, and demonstrating well-established community policing plans
received higher scores and were more likely to receive a grant. While COPS
performed some limited data validity checks, COPS relied heavily on the
accuracy of the data submitted by grant applicants. In the CHRP Application
Guide, COPS reminded applicant agencies to provide accurate agency
information as this information may be used, along with other data collected,
to determine funding eligibility. In our May 2010 report of the COPS grant
selection process, we found that the validation process COPS used to ensure
the accuracy of the crime data submitted by applicants was inadequate. 1
As a result, some agencies may have received grant funds based on
inaccurate applications. However, we were unable to determine the number
of applications that included inaccurate data.

     During this audit, we obtained documentation from Lawrence to
support the information it submitted to COPS to secure the 2009 CHRP

      1
          U.S. Department of Justice Office of the Inspector General, A Review of the
Selection Process for the COPS Hiring Recovery Program, Audit Report 10-25, (May 2010).


                                         -7­
grant. From our limited review, we found that Lawrence accurately captured
and reported the key statistical data included in its CHRP application.

Salary and Fringe Benefit Expenditures

       We found that Lawrence correctly ensured that it only charged the
entry-level salary approved in the CHRP budget for each grant-funded
officer. However, we found Lawrence incorrectly calculated the medical
fringe benefits charged to the grant for one CHRP-funded officer. For the
JAG grant, Lawrence accurately calculated the salaries and fringe benefit
expenditures for each grant-funded officer.

       We tested a judgmental sample of Lawrence’s salary and fringe benefit
expenditures to determine if they were allowable, supportable, and accurate.
To determine if expenditures were allowable, we compared the expenditures
to approved expenditures incorporated in the terms and conditions of the
grants. To determine if expenditures were supported and accurate, we
tested salary and benefit expenditures by evaluating the allocation of
salaries and benefits based on the requirements identified by COPS and OJP
in the respective award documents. We examined officer payroll records for
9 of the 11 grant funded officers for two non-consecutive pay periods, and
we tested accounting records supporting salary and fringe benefit
expenditures for three calendar quarters of the COPS grant and salary
expenditures for two calendar quarters of the JAG grant.

COPS Hiring Recovery Program Grant

      According to the CHRP grant application and award documentation, the
CHRP grants were intended to provide 100 percent funding for the approved
entry-level salaries and fringe benefits of full-time sworn career law
enforcement officers. In cases where the officer’s salary and fringe benefits
exceeded that of entry-level officers, the additional costs are the
responsibility of the grantee.

        We found Lawrence officials segregated grant-funded expenditures
into separate accounts. Within the separate accounts, Lawrence officials
verified the salary and fringe benefits paid to each officer on a weekly basis.
Because an officer’s total salary, not the required entry-level salary, was
initially reported in the accounting system, Lawrence officials calculated an
entry-level salary and fringe benefit target amount that they could not
exceed for each quarter. For example, officials removed an officer’s
overtime payments from the grant account. To ensure only entry-level
salaries were charged to the grant, at the end of each quarter officials
reconciled the accounting codes by deducting all salary expenditures above


                                     -8­
the entry-level amount from the total salary and fringe benefits reported in
the accounting system. The results of this reconciliation reduced the total
salaries initially reported in the accounting system to the grant-approved
entry level salary.

      Lawrence received approval for five fringe benefits in its award
document: (1) medical insurance, (2) dental insurance, (3) pension,
(4) Medicare and, (5) holiday pay. Pension, Medicare, and holiday pay
expenditures were approved at a fixed rate as a percent of salary. For
example, each Lawrence city employee contributes nine percent of salary to
fund the city’s pension program. Medical and dental insurance rates were
variable expenditures because they were based upon the type of medical or
dental plan selected.

       We determined Lawrence’s methodology was accurate by comparing
the first-year salary expenditures officials reported to the salary
expenditures we calculated using Lawrence’s methodology for the three
quarters tested. We verified the accuracy of the fixed rate fringe benefits by
comparing the rates reported by Lawrence to the fixed benefit rates we
calculated. We used the officer’s personnel folder to verify the variable
fringe benefit expenditure, and we calculated the fringe benefit expenditure
based on the medical or dental plan selected by each officer.

      In addition to verifying accounting records, we reviewed payroll
records and personnel files to ensure: (1) weekly payrolls were accurately
recorded in the accounting system, (2) supervisors reviewed and approved
the officer’s timesheets, and (3) grant-funded officers were eligible for fringe
benefits.

       Based on our review of payroll records, personnel files, and our
verification of Lawrence’s accounting methodology, we concluded that
Lawrence officials generally met the terms and conditions of the grant for
managing CHRP salary and fringe benefit expenditures. However, we found
the medical fringe benefit expenditure for one grant-funded officer tested
was inaccurate. The inaccuracy occurred because Lawrence officials
provided the police department grant manager with an incorrect medical
benefit rate for the officer. The grant manager acknowledged the inaccuracy
and corrected the officer’s medical benefit rate. No exceptions were noted
for any of the other officers we tested.

     We did not calculate questioned costs in this instance because officials
conservatively estimated medical fringe benefit costs during the application
process. Because of continually rising health insurance costs, the city’s total
medical benefit costs exceeded the costs estimated at the time of the


                                     -9­
application. However, we concluded internal controls should be
strengthened to ensure medical benefit rates are accurately reported for all
grant funded officers. Without an adequately functioning system of checks
and balances in the charging of fringe benefit expenditures, grant funds are
at risk for possible errors or irregularities.

Office of Justice Programs Byrne Memorial Justice Assistance Grant

      The JAG grant initially provided Lawrence with a formula based grant
to provide salary and fringe benefits funding for four officer’s salary for one
year. Lawrence then followed a similar methodology to the one described
above for the COPS CHRP grant to establish quarterly salary and fringe
benefit target amounts for each quarter. However, for the JAG grant,
Lawrence was allowed to charge the actual salaries paid to each individual
and they based their targets on the salary and fringe benefit amounts
included in the approved grant application budget. Fixed fringe benefit
expenditures were charged to the grant at the approved rates and variable
benefits such as medical and dental insurance were calculated using the
actual benefit expenditures. We found evidence that unallowable costs such
as overtime were segregated from the officer’s total salary and removed
from the total expenditures requested for reimbursement. We also verified
weekly payrolls were accurately recorded in the accounting system and that
supervisors approved the time sheets tested.

       Based on our review of payroll records, personnel files, and our
verification of Lawrence’s accounting methodology, we concluded that
Lawrence officials met the terms and conditions of the JAG grant for
managing salary and fringe benefit expenditures.

Budget Management and Control

       Criteria established in 28 C.F.R 66 § 30 addresses budget controls
surrounding grantee financial management systems. According to the
C.F.R., grantees are permitted to make changes to their approved budgets
to meet unanticipated program requirements. However, the movement of
funds between approved budget categories in excess of 10 percent of the
total award must be approved in advance by the awarding agency. In
addition, the C.F.R requires that all grantees establish and maintain program
accounts which will enable separate identification and accounting for funds
applied to each budget category included in the approved award. Budget
management controls insure federal funds are not exposed to unauthorized
expenses, misuse, and waste.




                                    - 10 ­
      COPS approved an itemized budget for the CHRP grant that included
budget categories for salary and fringe benefits. In their application for JAG
funding, Lawrence officials also included a budget with expenditures for
sworn officer salaries and fringe benefits. While the CHRP grant was still in
progress at the time of our audit, Lawrence appeared to remain within the
approved budget allowance for each category for this grant. Lawrence also
remained within the approved budget allowance for the completed JAG
grant.

COPS Hiring Recovery Program Grant

      The CHRP approved budget was based on the first year officer base
salary, and Lawrence’s fringe benefit rates based on the fixed benefit rates
as well as estimates for the variable medical and dental insurance benefits.
As noted earlier in the report, Lawrence’s methodology to account for grant
expenditures included salary and fringe benefit target amounts established
for each calendar quarter. Lawrence followed the same methodology to
maintain expenditures within the required budget categories. We found that
by establishing target amounts for each quarter, Lawrence officials were able
to compare actual grant expenditures to the approved budgetary guidelines.

       We compared the total grant expenditures from Lawrence’s accounting
records to the expenditures COPS approved in the Financial Clearance
Memorandum for the quarter ending March 2012. We found the city’s
expenditures generally fell within the approved budget categories. However,
at the time of our audit’s fieldwork, health insurance costs exceeded the
city’s original budget by $16,704. The grant manager told us she was aware
of the problem and it occurred because they underestimated the rate of
health insurance cost increases over the life of the grant and they plan to
make up the shortfall with city funding.

       Because city officials established and maintained program accounts to
enable separate identification and accounting for funds applied to each
budget category, and because expenditures remained within the ten percent
total award allowable deviation, we concluded the city met the terms and
conditions of the award in the area of budget management and control.

Office of Justice Programs Byrne Memorial Justice Assistance Grant

      In order to track grant expenditures and meet the terms and
conditions of the JAG grant, Lawrence included a projected budget in their
application based on the anticipated officer salaries and estimates of both
fixed and variable fringe benefits. We reviewed accounting records and
found officials used the same methodology described in the previous section


                                    - 11 ­
of the report to determine grant-funded salary and fringe benefit
expenditures. We found rising health insurance costs again caused the city
to exceed the budgeted amount by $14,247. At the end of the grant,
Lawrence officials transferred $8,751 between budget categories and added
$5,496 in city funding to address the shortfall. Because the budget transfers
did not exceed the allowable deviation of 10 percent of the total award, we
concluded that Lawrence met the terms and conditions of the JAG grant in
the area of budget management and control.

Reporting

Federal Financial Reports

      The financial aspects of the grants are monitored through Federal
Financial Reports (FFRs). FFRs are designed to describe the status of grant
funds and should be submitted within 30 days of the end of the most recent
quarterly reporting period. For periods when there have been no program
outlays, a report to that effect must be submitted. Funds for the current
award or future awards may be withheld if reports are not submitted or are
excessively late.

      The grant manager told us she completed FFRs using the discreet
accounting codes established for each grant. We sampled eight CHRP grant
FFRs between April 2010 and March 2012. We concluded the eight reports
tested were accurate because the total expenditures reported in the FFR
agreed with the totals reported in Lawrence’s accounting records for the
CHRP award. We also tested each FFR for timeliness using the criteria noted
above and we found officials submitted each FFR timely. Because each of
the FFR’s we tested was accurate and submitted in a timely manner, we
concluded Lawrence officials met the financial reporting standards for the
CHRP grant.

       For the JAG grant we tested five FFRs between April 2009 and
September 2010. We found officials submitted each FFR timely. Each of the
five reports tested were accurate because the total federal expenditures
reported in the FFR agreed with the totals reported in Lawrence’s accounting
records. Because each of the FFR’s we tested was accurate and submitted in
a timely manner, we concluded Lawrence officials met the financial reporting
standards for the JAG grant.

Progress Reports

      COPS established a quarterly filing requirement for CHRP progress
reports. The reporting requirements included a survey that required


                                   - 12 ­
recipients to report the number of jobs created or saved by grant funding
and a self-assessment of the recipient’s progress toward meeting its
community policing goals. COPS did not require the recipients to maintain
documentation to support their self-assessment of community policing goals.
We sampled the last eight progress reports and found Lawrence submitted
each progress report within the required time period specified by COPS. In
addition, each report included all of the required reporting elements. We
concluded that Lawrence met the progress reporting requirement.

      The OJP Financial Guide established an annual progress reporting
requirement for JAG grants. The reports are due annually no later than
December 31. Because JAG grants are formula based awards, OJP allowed
Lawrence to use its Recovery Act reports to satisfy the annual progress
reporting requirement. We reviewed both of the JAG progress reports
Lawrence submitted covering the annual periods ending in December 2010
and December 2011 and found Lawrence submitted each progress report
within the required time period specified by the OJP Financial Guide. The
reports included among other things statistics relevant to the number of
uniformed officers retained with grant funding.

Recovery Act Reports

      In addition to normal reporting requirements, grantees receiving
Recovery Act funding are required to submit quarterly reports which include
both financial and programmatic data. The Recovery Act requires recipients
to submit their reporting data through FederalReporting.gov, an online web
portal that collects all the reports. Recipients must enter their data no later
than the 10th of the month after each quarter beginning June 30, 2009.

      Lawrence was responsible for submitting 11 CHRP and 4 JAG Recovery
Act reports during the period of review. We examined six quarterly reports
and we found the reports included the required elements. We found
Lawrence officials filed each of the six reports in a timely manner.

      Because Lawrence officials submitted each of the reports we tested
within the required timeframe and because the reports included all of the
required performance elements, we concluded that Lawrence met the
reporting requirements.

Drawdowns

        Drawdown is a term to describe when a recipient requests funding for
expenditures associated with a grant program. The OJP Financial Guide
establishes the methods by which DOJ makes payments to grantees.


                                     - 13 ­
Advances are allowed, but non-formula grant funding must be used within
10 days of the transfer. To determine if drawdowns were completed in
advance or on a reimbursement basis, we interviewed the grant manager,
analyzed bank statements and reviewed documentation supporting the
actual expenditures. We determined grant funds were requested on a
reimbursement basis in all instances. In addition, we determined
drawdowns were requested based on actual expenditures and did not exceed
grant expenditures.

COPS Hiring Recovery Program Grant

      At the time of our field work, Lawrence had requested funding for
$1,246,304 of the $1,496,985 total award. We examined 10 drawdowns
made between December 2009 and January 2012. Lawrence used the
segregated accounting codes for the CHRP grant to establish the amount of
funding requested for each drawdown. Because the grant funded only
entry-level salaries, Lawrence initially calculated the total cost of salary and
fringe benefit expenditures and then divided the total into a grant funded
share and a city funded share. For example, to support the January 2012
cumulative drawdown of $125,340, Lawrence provided accounting records
supporting $152,856 of salary and fringe benefit expenditures – a difference
of $27,516 which represented the city’s share of the expenditures.

     Because Lawrence could support their drawdown requests with
accounting records and because they addressed the potential for advanced
payments, we concluded Lawrence met the terms and conditions of the
CHRP grant for drawdowns.

Office of Justice Programs Byrne Memorial Justice Assistance Grant

      At the time of our field work, Lawrence had requested funding for the
entire $312,592 JAG grant. We examined five drawdowns Lawrence made
between December 2009 and October 2010. Lawrence used the same
methodology described in the preceding section to determine the JAG
funding requests. To support the cumulative drawdown total of $312,592,
Lawrence provided accounting records supporting $318,088 in expenditures
and the city funded the difference of $5,496.

      Because Lawrence could support their funding requests with
accounting records and because they addressed the potential for advanced
payments, we concluded Lawrence met the terms and conditions of the JAG
grant for drawdowns.




                                     - 14 ­
Compliance with Other Award Conditions

       Award requirements are included in the terms and conditions of a
grant and special conditions may be added to address special provisions
unique to an award. To ensure job growth or job preservation, the Recovery
Act stipulated that funds from both grants should be used to supplement
existing funding and not supplant, or replace, funding already appropriated
for the same purpose. The CHRP grant required recipients to plan to retain
all sworn officer positions funded by the award for one year after the grant
ended. The formula based JAG grant did not include a requirement to
address retention planning.

Supplanting Analysis

      To ensure job growth or job preservation, the Recovery Act stipulated
that funds should be used to supplement existing funding and not supplant,
or replace, funding already appropriated for the same purpose. During our
audit, we completed an analysis of the number of jobs Lawrence preserved
with Recovery Act funding through the grants, examining the potential for
supplanting.

       Lawrence requested CHRP funding to retain 7 existing full-time
uniformed officer positions and received the grant in order to fund the
officers who were planned to be laid off as a result of events unrelated to
receiving the federal funding. In addition, Lawrence also received the JAG
grant to retain 4 officers. To support its application for funding, Lawrence
provided budget documents that showed Lawrence planned to lay- off
uniformed officers if they were unable to obtain Recovery Act funding.

       To eliminate the potential for supplanting after a recipient receives
award funding, the recipient is expected to maintain its local budget for
sworn officers during and after the period of the award. We examined the
Lawrence Police Department’s budget and the number of sworn officers or
full-time equivalents (FTEs) during the 2009-2012 budget years.




                                    - 15 ­
                          Lawrence Police Department

                            Fiscal Years 2009 to 2012

                      Total Budget and Fulltime Equivalents


           FISCAL               TOTAL           PLANNED       ACTUAL
            YEAR               BUDGET            FTES          FTES

            2009            $13,335,910          147            137

            2010            $12,483,790          137            137

            2011            $11,079,166          100            100

            2012            $11,085,907          101            101
      Source: Lawrence Police Department

      As the table above demonstrates, between 2009 and 2012, Lawrence
decreased its police department budget by over $2 million and reduced the
actual number of uniformed officers by 36. However, although the non-
supplanting requirement prohibits a recipient from reducing its sworn officer
budget after receiving a grant, federal regulations provide an exception to
the requirement if the recipient can demonstrate the reduction occurred for
reasons unrelated to grant funding.

       We reviewed budget documents and found the reduction in both the
city’s and the police department budget and sworn officer strength resulted
from reductions in funding provided by the Commonwealth of
Massachusetts, not the receipt of award funding. During the 2009 and 2010
budget years, the Commonwealth reduced the funding provided to Lawrence
by over $7 million dollars. The reduction in state funding resulted in city­
wide personnel reductions. For example, the Fire Department experienced a
reduction of 44 firefighters and the city’s Department of Public Works
experienced a reduction of 20 fulltime personnel. Because the reductions in
sworn officer budgets and end strength were unrelated to grant funding, we
concluded Lawrence met the grant’s non-supplanting requirement.

Retention Planning

       The formula based JAG grant did not include a requirement to address
retention planning. However, the CHRP grant required recipients to plan to
retain all sworn officer positions funded by the award for one year after the
grant ends. Grant recipients are expected to add grant funded officers to
their projected budgets with local funds. The number officers retained



                                       - 16 ­
should be over and above the number of locally-funded positions that would
have existed in the absence of the grant.

      The grant manager told us she was aware of the requirement to retain
grant funded officers with local funding. Since the grant will end during the
FY 2013 budget period, we reviewed the proposed budget and found the city
included the retention of seven grant funded officers in its budget proposal.

Program Performance and Accomplishments

      Both the CHRP and the JAG grants included an objective to preserve
uniformed officer jobs that would have been eliminated if the city did not
receive grant funding, based on the job preservation objective contained
within the Recovery Act. The CHRP grant also included an objective to
enhance Community Policing and the JAG grant included similar objectives.

      As we noted earlier in the report, the city received CHRP and JAG
funding to preserve 7 and 4 uniformed officer jobs, respectively. Our
analysis of the potential for supplanting confirmed that the city preserved
the 11 uniformed officer jobs that would have been eliminated in the
absence of grant funding.

       In the CHRP Application Guide, COPS identified the methods for
measuring a grantee’s performance in meeting the CHRP grant objectives.
According to COPS there were two objectives for the CHRP grant: (1) to
increase the capacity of law enforcement agencies to implement community
policing strategies that strengthen partnerships for safer communities and
enhance law enforcement’s capacity to prevent, solve, and control crime
through funding additional officers, and (2) to create and preserve law
enforcement officer jobs. Quarterly progress reports describe how CHRP
funding was being used to assist the grantee in implementing its community
policing strategies and detailing hiring and rehiring efforts were to be the
data source for measuring performance. However, COPS did not require
grantees to track statistics to respond to performance measure questions in
the progress reports. In addition, the grantee’s community policing
implementation rating, contained in the progress report, would not be used
in determining grant compliance.

        We interviewed the grant manager, reviewed progress reports, and
budget documents and found evidence of community policing related
activities. For example, Lawrence’s Community Engagement Initiative
targets the city’s highest risk neighborhoods to promote community
involvement and maximize the officer’s impact on crime. During this
initiative, neighborhood visits are published in advance to maximize


                                    - 17 ­
community involvement and the department’s Mobile Command Center is
positioned in the neighborhood to provide a safe and secure area for officers
to interact with city residents.

Conclusions

       We found Lawrence generally met the terms and conditions for the
CHRP and JAG grants we reviewed. Specifically, Lawrence used grant funds
for their intended purposes, to retain officer positions, appropriately
managed and reported the use of those funds, and demonstrated that the
positions funded by the grants would be retained in the future.

      However, we found an inaccuracy related to a grant funded medical
fringe benefit charged to the COPS grant for one CHRP funded officer.
However, because the city documented higher than expected medical fringe
benefit costs during the grant period, we did not question costs. We
considered the inaccurate medical fringe benefit amount charged to the
CHRP grant an internal control shortcoming that warrants management
attention. As a result, we make one recommendation to address this
finding.

Recommendation

We recommend that COPS:

1.	 Ensure Lawrence develops and implements internal control procedures
    to accurately calculate medical fringe benefit cost rates.




                                    - 18 ­
                                                               APPENDIX I


           OBJECTIVES, SCOPE, AND METHODOLOGY

       The purpose of the audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and the terms and
conditions of the grants, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment, (2) CHRP application
statistics, (3) salary and fringe benefit expenditures, (4) budget
management and controls, (5) reporting, (6) drawdowns, (7) compliance
with other award conditions, and (8) program performance and
accomplishments.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. These standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      We audited a total of $1,809,577 provided through an Office of
Community Oriented Policing Services Hiring Recovery Program Grant and
the Office of Justice Programs, Bureau of Justice Assistance FY 2009
Recovery Act Edward Byrne Memorial Justice Assistance Grant awarded to
the City of Lawrence, Massachusetts. Our audit concentrated on, but was
not limited to the initial award of the JAG grant in March 2009, through the
end of our field work in June 2012.

       We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audited against are contained in the Code of Federal Regulations: 28 CFR
§ 66, Uniform Administrative Requirements for Grants, the Office of Justice
Programs Financial Guide, and the award documents. We also reviewed
Lawrence’s most recent Single Audits for the periods ending in June 2009
and June 2010 and identified no findings that could impact the grant funding
we audited. In addition, both COPS and OJP conducted site visits and we
identified no significant findings that could impact the scope or methodology
for our audit.

      In conducting our audit, we tested the Lawrence’s award activities in
the following areas: internal controls, CHRP application statistics, salary and
fringe benefit expenditures, budget management and controls, reporting,
drawdowns, compliance with other award conditions, and program


                                    - 19 ­
performance and accomplishments. In addition, we reviewed the internal
controls of the city’s financial management system specific to the
management of DOJ funds during the award period under review. However,
we did not test the reliability of the financial management system as a
whole. We also performed limited tests of source documents to assess the
accuracy and completeness of reimbursement requests and Federal Financial
Reports.




                                 - 20 ­
                                                                                            APPENDIX II


             LAWRENCE POLICE DEPARTMENT

          RESPONSE TO THE DRAFT AUDIT REPORT





                                 Lawrence Police Department
                                                        90 LowelJ Street
                                                Lawrence, Mt:lS5aChusetts 01840
                                                     TeL- (978) 794-5900


John J. Romero
 Chi#! ofPoij~




            January 23, 2013



            Thomas O. Puer.lcr, Regional A udit Manager
            U. S. Depanment of Justice, Office of tile Inspector Genera!
            Philadelphia Regional Audit Office
            701 Market Street, Suite 20 1
            Philadelphia, PA 19 106

            Dear Mr.   Puer~r:


            The Lawrence Police Departmcni wou ld like to respond the audit recommendations from
            the Department of Justice Office of th e Inspector General, Audit DivisiOn, concerning the
            following grants:

                  Office of Community Oriented Police Services (COPS) Hiring Recovery
            Program (CHRP) grunt number 2009-RJ-WX-0396

                 The Office of Justice Program (OJP) Bureau of Justice A.s~iJ;tance Recovery
           Act Edward Uyrne Memorial Justice Auistanee (JAG) gra nt number 2009-S8-B9-
           0647


           Recommendation 1: Ensure Lawrence develops and implements inlemal control
           procedW'Cs to accurately calculate medical fringe benefit cost ratcs.

           In October of201 0 the City of Lawrencc implemented a new health insurance program
           by which the splil of percentage paid by employees and the city was based on years of
           employment. In preparation of this new met hod of payment all employees' health care
           percentages were entered manually in the city's payroll system Emp loyees hired after
           June 30, 2003 were to be assessed 25% of the cost of health insurance, with the city
           paying 75% oflhe cost. In error, ont of the officers on the COPS granl WM assessed al
           20"10 of the cost of his health insurance rather than 25%.




                                             Fax: (91.8) 794·5917




                                                  - 21 - 

Remedy I: During tilt: aud it this came to OUf attention and was corrected. To ensure this
does not happen again, the system is in place when an employee is entered in the City's
official record keeping system, the date of hire will appear for the insurance clerk to
detennine the amount the employee should be paying. This system was in place at the
time the error was made, but because of the manual entering of data in the system an
error was made. The city record has since been re-checked to insure all records are
correct.

Additionally, once an employee begins service at the Police Department, the payroll clerk
wiJl double check to inSure the correct percentage of health insurance is being charged in
the bi-weekly payroll system, and initial lhe insurance sheet kepi in the police department
records.

We believe these steps will prevent this Iype of error from happening again.

If you have any questions concerning this matter please contact Kathleen Flanagan,
Director of Support Service at 978-479-9074 Of kflanagan@lawpd.com




Sincerely,




                                       - 22 ­
                                                                                   APPENDIX III


          OFFICE OF JUSTICE PROGRAMS

      RESPONSE TO THE DRAFT AUDIT REPORT


                                                  U.S. Departmcnt of Justice

                                                  Office ofJuslice Programs

                                                 Officc of Audit. Assessmenl, and Management




 fcll - B 2013




MEMORANDUM TO:               Thomas O. Puerzer
                             Regional Audit Manager
                             Philadelphia Regional Audit Office
                             Office of the Inspector General

FROM:                        MaureenA. H~_c~rg
                             Director Yl'l7t:i~r
SUBJECT:                     RcS(Xlnsc to the Draft Audit Report, Audit of the Office of
                             Community Oriented Policing Services and Office of Justice
                             Programs Grants Awarded to the City of Lawrence, Massachusetts

This mcmorandum is in response to your corres(Xlndencc, dated January 10, 20 13 , transmitting
the subject draft audit report for the City of Lawrence, Massachusetts. We consider the subject
report resolved and request written acceptance of this action from your office.

lbe drdft audit report contains one recommendation and no questioned costs; however, the
recommendation is directed to the Office of Community Oriented Policing Services. As the draft
report contains no recommendations directed to the Office of Justice Programs, we have no
comments.

We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional infonnation, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616·2936.

cc:     Jeffery A. Haley
        DepUTy Director, Audit and Review Division
        Office of Audit, Assessment, and Managemem

        Tracey Trautman
        Deputy Director for Programs
        Bureau of Justice Assistance




                                            - 23 - 

cc:   Amanda LoCicero
      Budget Analyst
      Bureau of Justice Assistance

      Brenda Worthington
      Grant Program Specialist
      Bureau of Justice Assistance

      Bernard Melckian
      DiItttor
      Office of Community Oriented Policing Scrvices

      Marcia Samuels-Campbell
      Acting Dcputy Director for Grant Operations
      Officc of Community Oricnted Policing Services

      Richard P. Theis
      Assistant Director, Audit Liaison Group
      Inte rnal Review and Evaluation Office
      Justice Management Division

      OlP Executive Secretariat
      Control Number 20130023




                                          - 24 ­
                                                                                      APPENDIX IV

OFFICE OF COMMUNITY ORIENTED POLICING SERVICES
      RESPONSE TO THE DRAFT AUDIT REPORT


                 u.s. DEPARTMENT OF JUSTICE
                 OFFICE OF COMMUNITY ORIENTED POLICING SERVICES

                 Grant Operations Directorate/ Audit Liaison Division
                                                                                      COPS
                 145 N Street, N.E., Washington, DC 20530




                                         MEMORANDUM


    To:           Thomas O. Puerzer
                  Philadelphia Regional Audit Manager
                  Office of the Inspector General

    From:         Melonie V. Shine ~
                  Management Analyst

    Date:         February 8, 2013

    Subject:      Response to the Draft Audit Report for the City of Lawrence, Massachusetts

           This memorandum is in response to your January 10,2013 draft audit report on the COPS
    Hiring Recovery Program Grant #2009RK WX0396, awarded to the City of Lawrence,
    Massachusetts (Lawrence). For ease of review, the audit recommendation is stated in bold and
    underlined, fo llowed by a response from COPS concerning the recommendation.
    Recommendation 1 - Ensure Lawrence develops and implements internal control
    procedures to accurately calculate medical fringe benefit cost rates.

            COPS concurs that grantees should have internal control procedures to accurately
    calculate medical fringe benefit cost rates.

    Discussion

             COPS will contact the grantee to request information concerning the internal control
    procedures that have been developed and implemented to ensure that medical fringe benefit cost
    rates are accurately calculated.

    Request

          Based on the discussion, COPS requests resolution of Recommendation 1. In addition,
    COPS requests written acceptance of the determination from your office.

            COPS would like to thank you for the opportunity to review and respond to the draft
    audit report. tfyou have any questions, please contact me at 202-616-8124 or via e-mail:
    me lonie.shine@usdoj.gov.




                                                  ..
     ADVANCING PUBLIC SAFETY THROUGH COMMUNITY POLICING




                                               - 25 - 

Thomas O. Puerzer
Philadelphia Regional Audit Manager, OIG
February 8, 20 13
Page 2


cc:   Louise M. Duhamel, Ph.D. (copy provided electronically)
      Justice Management Division

       Marcia O. Samuels Campbell (copy provided electronically)
       Grant Operations Directorate

       Grant File: CHRP #2009RKWX0396

       Audit File


ORI: MAOOSI3




                                           - 26 ­
                                                            APPENDIX V


  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to the Lawrence Police
Department (Lawrence), the Office of Justice Programs (OJP), and the Office
of Community Oriented Policing Services (COPS) for review and comment.
Lawrence’s response is included as Appendix II of this final report, the OJP
response is included as Appendix III and the COPS response is included as
Appendix IV. The following provides the OIG analysis of the responses.
Based on the OIG’s analysis of the responses, this audit report is issued
closed.

Recommendation Number

  1. Closed. Lawrence and COPS concurred with our recommendation to
     ensure Lawrence establishes internal control procedures to accurately
     calculate medical fringe benefit cost rates.

     In its response Lawrence provided a new protocol designed to enhance
     the review of medical fringe benefit cost rates.

     This recommendation is closed.




                                   - 27 ­
